               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Postal Service Workers’
              Compensation Program

                       Audit Report




                                         September 30, 2011



Report Number HR-AR-11-007
                                                                   September 30, 2011

                                                              Postal Service Workers’
                                                              Compensation Program

                                                        Report Number HR-AR-11-007



IMPACT ON                                    Continue pursuing legislative changes to
Postal Service Workers’ Compensation         FECA by implementing best practices
Program                                      for increasing program effectiveness
                                             and efficiencies and reducing costs.
WHY THE OIG DID THE AUDIT:                   Request the secretary of Labor to
Our objective was to determine whether       implement internal controls to enhance
U.S. Postal Service workers’                 the Department of Labor’s (DOL)
compensation claims are handled              handling of the Office of Inspector
effectively and efficiently to ensure        General reports of investigation; and
employees entitled to benefits               revise the method used to determine the
appropriately receive them and to            administrative fee to ensure it reflects
identify opportunities to reduce workers’    actual costs to administer the workers’
compensation costs and improve               compensation program. Finally, we
service.                                     recommended additional training.

WHAT THE OIG FOUND:                          WHAT MANAGEMENT SAID:
Postal Service workers’ compensation         Management agreed with the
claims are not always handled                recommendations to pursue legislative
effectively and efficiently. Specifically,   changes to FECA, stating this in
Federal Employees’ Compensation Act          process. Management also agreed with
(FECA) reform is needed to improve the       the recommendation to provide training.
Federal Workers’ Compensation                However, they disagreed with
Program by implementing controls and         recommendations to request changes to
efficiencies used in the private sector.     allow employing agencies to present
Also, opportunities exist to improve         evidence at hearings, clarify
management of claims in the three            responsibilities for fraud detection, and
districts we reviewed, strengthen billing    establish a 45-day response time on
guidelines for providers, reduce program     cases.
abuses, and revise the methodology
used to determine the Postal Service’s       AUDITORS’ COMMENTS:
administrative fee. The Postal Service       We consider management’s comments
could save approximately $335 million a      responsive to three of our
year if it implements cost-containment       recommendations. We plan to request
practices used in the private sector.        joint working group meetings with DOL
                                             and DOL Office of Inspector General to
WHAT THE OIG RECOMMENDED                     address the other recommendations.
We recommended the vice president,
Employee Resource Management,                Link to review the entire report
September 30, 2011

MEMORANDUM FOR:            DEBORAH M. GIANNONI-JACKSON
                           VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT

                                 E-Signed by Mark Duda
                              VERIFY authenticity with e-Sign




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                   Audit Report – Postal Service Workers’
                           Compensation Program
                           (Report Number HR-AR-11-007)

This report presents the results of our audit of the Postal Service Workers’
Compensation Program (Project Number 10YR001SA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Anthony J. Vegliante
    Corporate Audit and Response Management
                                                Table of Contents
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

FECA Reform .................................................................................................................. 2

   Maximum Time and Benefit Limits............................................................................... 3

   Settlement and Buyouts............................................................................................... 3

   Employer-Selected Physicians .................................................................................... 3

   Return to Work ............................................................................................................ 4

   Generic Drugs ............................................................................................................. 4

   Third-Party Liability ...................................................................................................... 5

DOL Claims Management and Responsiveness to OIG Investigative Reports ............... 5

Provider Compliance Program ........................................................................................ 8

Administrative Fees ......................................................................................................... 8

Postal Service Claims Management................................................................................ 9

New Claims Acceptance Rates ..................................................................................... 11

Recommendations ........................................................................................................ 13

Management’s Comments ............................................................................................ 13

Evaluation of Management’s Comments ....................................................................... 14

Appendix A: Additional Information ............................................................................... 16

   Background ............................................................................................................... 16

   Objectives, Scope, and Methodology ........................................................................ 17

   Prior Audit Coverage ................................................................................................. 19

Appendix B: Management’s Comments ........................................................................ 23
Postal Service Workers’ Compensation Program                                                         HR-AR-11-007



Introduction

This report presents the results of our audit of the U.S. Postal Service Workers’
Compensation Program (Project Number 10YR001SA000). Our objective was to
determine whether Postal Service workers’ compensation claims are handled effectively
and efficiently to ensure employees entitled to benefits appropriately receive them and
to identify opportunities to reduce workers’ compensation costs and improve service.
This audit was self-initiated as a result of the Postal Service’s rising workers’
compensation costs and long-term liabilities. The audit addresses financial risk. See
Appendix A for additional information about this audit.

Postal Service employees are covered by the Federal Employees’ Compensation Act
(FECA). Enacted in 1916, FECA provides various types 1 of benefits to civilian federal
employees who sustain injuries or an occupational disease as a result of their
employment. FECA also provides monetary benefits to qualified survivors if a
work-related injury or disease causes an employee’s death. FECA compensation
benefits are tax-free. The base rate is 66 2/3 percent of the injured employee’s salary if
there are no dependents or 75 percent if there is at least one dependent. FECA does
not have age or time limits on benefits. Benefits are payable as long as a physician
certifies the condition or disability continues. FECA has not been significantly reformed
in 35 years.

The Department of Labor’s (DOL) Office of Workers’ Compensation Programs (OWCP)
administers FECA and determines the injured workers’ eligibility for benefits. The DOL
provides direct compensation to providers, claimants, and beneficiaries. However, the
Postal Service later reimburses the DOL for its workers’ compensation claims.
Additionally, the Postal Service and other agencies not funded by appropriations must
also pay the DOL a fee to administer the program for their employees. For chargeback
year 2 2010, the Postal Service paid the DOL over $1 billion for workers’ compensation
claims and about $61 million for administrative fees, which represented 94 percent of
total administrative fees paid by “Fair Share” agencies.3

The Postal Service is the largest FECA participant. As of June 2011, the Postal Service
had about 16,214 disabled employees on the periodic roll, 4 which included 9,554 people
age 55 and over; 3,389 people age 65 and over; and 928 people age 80 and over. The
oldest Postal Service FECA participant was 99.



1
  Benefits include wage replacement, medical treatment, and vocational rehabilitation.
2
  The chargeback year (July 1 through June 30) is the period when the DOL bills agencies for OWCP benefits.
3
  FECA requires the Postal Service and non-appropriated agencies to pay the DOL its fair share of the cost of
administrating the workers’ compensation program as determined by the secretary of Labor.
4
  Employees who are receiving workers’ compensation benefits and have disabilities that are expected to be
permanent or prolonged (60-90 days).
                                                          1
Postal Service Workers’ Compensation Program                                HR-AR-11-007




Conclusion

We found that Postal Service workers’ compensation claims are not always handled
effectively and efficiently by the DOL and the Postal Service. Specifically, we
determined FECA reform is needed to improve the federal workers’ compensation
program by implementing controls and efficiencies used in the private sector.
Additionally, opportunities exist to improve the management of workers’ compensation
claims, strengthen billing guidelines for providers, and reduce program abuses.

We also found that the method used to determine the Postal Service’s administrative
fee should be revised to better reflect the actual cost for the DOL to administer the
program. Lastly, in our analysis of the new claims acceptance rates for DOL compared
to that of the Social Security Administration (SSA), we found the DOL’s average 5-year
acceptance rate for new claims was 85 percent compared to the SSA’s 40 percent
acceptance rate for Social Security Disability Insurance (SSDI). FECA reform and
enhanced claims management could result in significant savings for the Postal Service
and improve service while protecting benefits for eligible employees. Our benchmarking
results revealed the Postal Service could save approximately $335 million dollars a year
if it implemented the cost-containment practices employed in the private sector.

FECA Reform

FECA has not been significantly reformed in 35 years and lacks many of the
cost-containment practices state governments and the private sector use to control
workers’ compensation costs.

We performed analysis and benchmarked to identify best practices for reducing
workers’ compensation costs. Global Insight benchmarked with four third-party
administrators (TPAs) and one private organization. The benchmarking results revealed
that Postal Service workers’ compensation costs far exceeded private sector costs.
Specifically, the Postal Service’s average workers’ compensation cost per employee
workhour was 95 cents compared to the private sector range of 42 to 67 cents. If the
Postal Service can reduce its workers’ compensation expense per hour worked from
95 to 67 cents, it would save about $335 million dollars a year.

This difference in costs exists because FECA lacks many of the cost-containment
practices state governments and the private sector use to limit workers’ compensation
benefits and control workers’ compensation costs including:

   Maximum time and benefit limits.
   Settlement and buyout options.
   Employer selected physicians.
   Enhanced return to work and rehabilitation programs.




                                               2
Postal Service Workers’ Compensation Program                                                      HR-AR-11-007



Further, we determined efficiencies would be gained through mandatory use of generic
drugs and recovery of continuation of pay (COP) benefits in third-party liability cases.
Although generic drugs are generally lower in cost than brand name drugs, FECA
allows Postal Service employees with approved workers’ compensation claims to
choose either brand name or generic drugs. Also, FECA does not allow the Postal
Service to recover COP benefits in third-party cases.
Maximum Time and Benefit Limits

Benchmarking results revealed that all 50 states have their own rules and regulations
for administering workers’ compensation programs, which serve as the governing body
for the private sector. 5 In general, state statutes vary slightly from one another. Each
benchmarking participant indicated that state statutes regulate the following:

      Benefit duration for Temporary Total Disability (TTD)
      Benefit duration for Partial Permanent Disability (PPD)
      Percentage of salary paid for TTD and PPD
      Maximum weekly benefit for TTD and PPD
      Timeframes for accepting or rejecting claims
      Timeframes for paying claims

For example, three of the five most populous states had maximum time limits for
receiving workers’ compensation benefits. Four of the five most populous states have
maximum compensation rates of 66 2/3 percent tax-free and do not provide additional
compensation for dependents. Conversely, FECA provides two levels of compensation
payments and its maximum rate is 75 percent tax-free for claimants with dependents.
Further, FECA does not have age or time limits for receiving benefits.
Settlement and Buyouts

When claimants’ conditions are expected to be long-term or permanent, settlements
and buyouts are commonly used by the private sector to reduce workers’ compensation
costs and long-term liabilities. For example, benchmarking results revealed that one
company settled 906 of 5,400 active workers’ compensation cases. FECA does not
allow settling of workers’ compensation cases except for those that involve third-party
liability. Revising FECA to allow the Postal Service to settle claims could reduce the
number of claimants on periodic rolls and overall workers’ compensation costs and
long-term liabilities.
Employer-Selected Physicians

Benchmarking results and our analysis showed that a majority of TPAs and private
companies require claimants to use their networks of selected physicians.




5
    Employers are required to follow the workers’ compensation rules that apply in their state.

                                                             3
Postal Service Workers’ Compensation Program                                    HR-AR-11-007



TPAs select physicians who have experience in handling workers’ compensation cases,
using the following criteria:

   Are designated as a workers’ compensation physician.
   Have medical credentials.
   Have experience handling workers’ compensation cases.

In addition to cost savings, some of the benefits TPAs and the private sector have
realized from using selected physicians include timely communication, trusted physician
assessments, and improved claims management. Currently, FECA allows claimants to
choose their own physicians. As a result, the Postal Service could be exposed to a
higher risk of fraud and increased workers’ compensation costs.

Mandatory use of employer-selected physicians streamlines the process for managing
workers’ compensation cases, reduces the potential risk for fraud, and provides
services that focus on returning employees to work.
Return to Work

We found that both the Postal Service and the private sector use return-to-work
programs to reduce the length of time claimants are out of work as a result of work
related injuries. Although FECA addresses return to work, it only allows permanently
disabled employees to participate in vocational rehabilitation programs. The DOL is
proposing changes to FECA that would allow all injured workers to participate in
vocational rehabilitation services, where appropriate, as early as 6 months after their
injury.

Further, according to a Postal Service official, allowing the Postal Service to initiate its
own vocational rehabilitation process independent of OWCP would increase the number
of claimants participating in the program and reduce workers’ compensation costs. The
earlier a claimant is involved in a vocational rehabilitation program, the greater
likelihood of a successful return to work.
Generic Drugs

FECA allows claimants to receive reimbursement for the cost of brand name drugs and
does not limit reimbursement to the generic drug rate, which is generally lower. Our
analysis showed that brand name drugs can cost up to 80 percent more than their
generic equivalent. Currently, FECA allows Postal Service employees with approved
workers’ compensation claims to choose either brand name or generic medications.
Postal Service officials estimate that if FECA limited reimbursement to the cost of the
generic equivalent, where applicable, the Postal Service could save approximately
$9 million a year.




                                               4
Postal Service Workers’ Compensation Program                                                         HR-AR-11-007




Third-Party Liability

FECA does not allow recovery of COP benefits in third-party cases. COP pay is
intended to avoid interruption of pay while claims are adjudicated and provides
claimants with a continuation of their regular pay for up to 45 calendar days of wage
loss due to disability and/or medical treatment after a traumatic injury. In fiscal year
(FY) 2010, the Postal Service paid over $36 million in COP costs. The 1974
“Continuation of Pay” provision of FECA prohibits recoveries of COP benefits in
third-party cases. As a result, the Postal Service is not allowed to recover COP benefits
paid to the claimant and recovered from a third party.

A 1980 Memorandum of Agreement between DOL and the Postal Service authorized
the Postal Service to pursue recoveries in FECA claims involving a liable third party. 6
The agreement established that the Postal Service or its employees may pursue
third-party cases except the following, which are administered by the DOL:

       Injuries resulting in employee death.
       Incidents that injure multiple employees.
       Injuries that occur outside U.S. or Canada.
       Injuries where the third party is a common carrier.
       Injuries where malpractice or product liability is involved.
       Occupational illness.

Both the Government Accountability Office (GAO) and the DOL have proposed FECA
reform to allow recovery of COP benefits in third-party cases. Reforming FECA to allow
the Postal Service to recover COP benefits would help reduce workers’ compensation
costs.

DOL Claims Management and Responsiveness to OIG Investigative Reports

The DOL is not always responsive to our reports of investigations for fraudulent
workers’ compensation claims. Specifically, our agents stated that it is difficult to work
with the DOL and that DOL officials are reluctant to provide needed information during
investigations. Additionally, the DOL does not always take timely or appropriate action
when our agents provide documentation demonstrating fraud or that a claimant is not
entitled to workers’ compensation benefits as evidenced below.

       We provided the DOL with a report of investigation (ROI) in 2006 that found a
        claimant was exceeding medical limitations and willing to return to work. However,
        the DOL did not reduce the claimant benefits until 2011.




6
 A third-party liability case exists when an employee's compensable injury or death results from circumstances which
create a legal liability on some party other than the U.S.

                                                         5
Postal Service Workers’ Compensation Program                                                     HR-AR-11-007



       An investigation and subsequent medical exam revealed a claimant could return to
        work with no restrictions. Despite repeated requests from the agent, the DOL took
        about 14 months to issue the claimant a Notice of Proposed Termination.

       In numerous cases the DOL did not consider video evidence showing claimants
        exceeding their medical restrictions or provide the evidence to the claimant’s doctor
        for use in determining their eligibility to continue receiving workers’ compensation
        payments. For example:

        o   In 2008, we submitted video evidence to the DOL showing a claimant
            exceeding medical limitations and requested an independent medical
            examination (IME). The DOL did not initially provide the video evidence to the
            doctor for the IME. When we discovered the DOL did not provide the report and
            video for the exam, we asked again that it be submitted as an addendum.
            When the doctor reviewed the video evidence, he agreed that the claimant
            could return to work and the Postal Service offered him a position. Ultimately,
            the claimant refused to return to work and continues to receive benefits.

        o   In February 2010, we submitted a ROI to the DOL prompting it to schedule the
            claimant for a follow-up exam. The DOL continued to pay benefits although the
            claimant did not attend the follow-up exam. In late 2010, the claimant did attend
            the follow up exam and was found to be capable of returning to work. However,
            despite several contacts by our agents to the DOL since that exam, the DOL
            has not taken any action to terminate the claimant’s benefits.

Further, the DOL has repeatedly requested that our agents conduct investigations jointly
with the Office of Inspector General’s (DOL OIG) agents to prevent the release of
investigative information to the claimants. Unless our agents work the cases jointly with
the DOL OIG, the DOL releases investigative information to the claimant (such as
videos or other material used to build an investigative case), which can jeopardize the
investigation. According to the Privacy Act, 7 FECA claimants are entitled to their case
records upon request. Additionally, the DOL’s policy states that most investigative
documents are releasable as a part of the case file. However, the DOL has established
a protocol8 for U.S. Postal Service Office of Inspector General (OIG) investigating
agencies that allows it to maintain investigative information in a separate file, which
prevents the claimant from having access to the investigative records during
investigations. The DOL does not always confirm that the investigation is complete prior
to placing the investigative information in the case file, which leads to the release of the
investigative information prior to the conclusion of the investigation. If all DOL offices
implemented this protocol, it would reduce the risk of investigative records being
released to claimants during investigations. Because we plan to address this issue
directly with the DOL, we are not making a recommendation in this report.


7
 Claimants’ case files are protected under the Privacy Act of 1974, 5 U.S.C. § 552a.
8
 FECA Circular 08-04, Division of Federal Employees’ Compensation Protocol Statement-OIG Audits, Evaluations,
and Investigations, dated March 31, 2008.

                                                       6
Postal Service Workers’ Compensation Program                                                       HR-AR-11-007



We believe many of the difficulties we have experienced working with the DOL exist
because there is no clear delineation of responsibilities for detecting fraud among the
DOL, the DOL OIG, the OIG, and the Postal Service. The DOL requires their claims
examiner to review case files for indications of fraud. If fraud is identified, the claims
examiner is responsible for notifying the DOL OIG, but is not required to notify the
agency or the agency OIG. When a claims examiner detects potential fraud, it is not
clear what role the DOL, the DOL OIG, the agency, and the agency OIG have in the
investigative process.

In addition, the DOL maintains exclusive control over case files and is not always willing
to provide needed documents during investigations. The DOL’s protocol 9 requires
advance notice to review case files, but the wait time could be up to 3 weeks.
Additionally, the DOL’s protocol establishes that case files could be scanned and
provided on compact discs; however, there are no timelines for providing the
information. Although the DOL has procedures for FECA investigations, it does not
implement these procedures in all of its district offices and the procedures do not
include timeliness requirements for the DOL to respond to investigating agencies, which
could impede an investigation. We plan to address the issues regarding access to case
files directly with the DOL and are not making a recommendation in this report.

The OIG has the authority and responsibility to investigate workers’ compensation fraud
for Postal Service employees. Specifically, beginning October 2008 through April 2011,
the OIG identified and facilitated terminating benefits for 476 claimants who were
committing workers’ compensation fraud. They have recovered $83.5 million in medical
and disability judgments and halted significant future losses. For example:

   In one investigation a claimant received $142,000 in fraudulent workers’
    compensation benefits. The Postal Service Office of Investigations captured pictures
    of the claimant hiking, bungee jumping, and enjoying the boat they purchased and
    named “Free Ride.” The claimant was convicted of fraud.

   In another investigation, a claimant claimed $190,000 in mileage reimbursements for
    travel to therapy almost every day for 5 years, including weekends and holidays.
    However, the DOL never questioned any of the reimbursement requests, even
    though there were no medical services to justify the claims.

The DOL OIG has jurisdiction to investigate all workers’ compensation fraud because
the DOL is statutorily authorized to administer FECA benefits. The OIG and DOL OIG
share jurisdiction to investigate fraud related to Postal Service workers’ compensation
claims. Further, the DOL and the Postal Service also have responsibilities for detecting
workers’ compensation fraud. 10 Although there are shared responsibilities for detecting

9
  Protocol for OIG Audits, Inspections, Evaluations, and Investigations of the FECA Program, Circular
08-04, effective March 31, 2008; and FECA Circular 09-05, Release of Documents from Federal Employees’
Compensation (FECA) Files, effective August 26, 2009.
10
   DOL must monitor claims for fraud and abuse. Additionally, Postal Service supervisors and Health and Resource
Management (HRM) personnel must evaluate workers’ compensation claims for fraud and abuse and report
suspicious claims to the Postal Service OIG.

                                                        7
Postal Service Workers’ Compensation Program                                                          HR-AR-11-007



and investigating fraud, the DOL has sole authority to approve or deny claims and
investigating agencies are not able to present evidence in a claims hearing. In addition,
there is no requirement for the DOL to respond to OIG ROIs.

Since there is no clear delineation of responsibilities or comprehensive standard
procedures for handling ROIs, the Postal Service is exposed to significant risk that
fraudulent claimants will go undetected for prolonged periods and investigative efforts
could be duplicated.

Provider Compliance Program

The DOL does not have a provider compliance program similar to Medicare, 11 which
makes it difficult to prosecute providers for fraudulent billings. The Department of
Justice regularly declines criminal and civil cases because the DOL lacks the policies or
guidance designed to prohibit abuse. In a current investigation involving a specific billing
code for pain management services, the assistant U.S. attorney is reluctant to include
charges for these particular services because the DOL does not have comprehensive
billing guidelines. According to our investigative analysis of billing records, we suspect
the provider is fraudulently billing for services not provided in the amount of $8.2 million.

A provider compliance program for workers’ compensation would give providers clear
guidelines for billing and establish criteria for criminal and civil cases against medical
providers who may fraudulently bill the DOL for workers’ compensation claims.
Establishing a provider compliance program could reduce fraudulent billings and
provide prosecutors criteria to establish fraud.

Administrative Fees

The DOL bases the administrative fee it charges the Postal Service on a percentage of
total FECA benefits paid and not actual costs to administer the Postal Service workers’
compensation program. FECA requires the Postal Service and other agencies not
funded by appropriations to pay the DOL their "Fair Share" of OWCP administrative
expenses. The secretary of Labor determines the “Fair Share” methodology, which is
based on a percentage of total workers’ compensation benefits paid, and is generally
about 5 to 6 percent. FECA does not allow the Postal Service the option to negotiate
this fee or the methodology for calculating it.

For chargeback years 2008, 2009, and 2010 the Postal Service paid the DOL about
$53 million, $56 million, and $61 million in administrative fees, respectively. The
$61 million paid in 2010 represented 94 percent of total administrative fees paid by “Fair
Share” agencies.


11
  Medicare has a compliance program that assists them in developing guidance for providers. The compliance
program includes conducting internal monitoring and auditing; implementing compliance and practice standards;
designating a compliance officer; conducting training and education; responding appropriately to detected offenses
and developing corrective action; and enforcing disciplinary standards through well-publicized guidelines.

                                                         8
Postal Service Workers’ Compensation Program                                                      HR-AR-11-007



The DOL’s methodology to calculate agencies’ “Fair Share” for FECA administrative
expenses does not consider actual costs associated with processing various FECA
benefits. Additionally, there is no direct correlation between the administrative fees
charged and actual costs for claims management. According to a Postal Service official,
the time and cost to administer new claims is generally higher than the cost to
administer continuation of benefits for individuals permanently disabled. Revising the
methodology could reduce workers’ compensation costs and ensure the fees are more
related to the services provided by the DOL.

Postal Service Claims Management

Opportunities also exist for the Postal Service to improve its management of workers’
compensation claims in the three districts we reviewed. Postal Service policy12 requires
responsible officials to ensure claimants have properly completed claims and other
medical forms and correspondence13 and to seek and offer limited-duty assignments to
capable claimants. However, 69 percent of the case files we reviewed (103 of 150) for
the Chicago, Philadelphia, and Seattle Districts did not contain consistent and relevant
claims forms, medical documentation, or correspondence. Table 1 summarizes the
results of our case file analysis.
                                      Table 1: Case File Analysis

       District            File did not have          File did not have         File did not have
                            consistent and                 evidence                 evidence
                            relevant claims               employees                 personnel
                            forms, medical               received the            sought limited-
                           documentation,                 rights and            duty assignment
                                   or                 responsibilities           for employees
                           correspondence                    form               with restrictions
 Chicago                      (26 of 50) 52%              (27 of 50) 54%            (10 of 50) 20%
 Philadelphia                  (35 of 50)70%              (20 of 50) 40%             (9 of 50) 18%
 Seattle                      (42 of 50) 84%              (32 of 50) 64%            (13 of 50) 26%
 Total                      (103 of 150) 69%             (79 of 150) 53%           (32 of 150) 21%
 Source: OIG Analysis

We found that responsible HRM personnel and supervisors in the three districts we
reviewed did not have sufficient training for handling workers' compensation cases. For
example:




12
 Handbook, EL-505, United States Postal Service Injury Compensation, October 1995.
13
 Required forms include CA-1, Federal Employee’s Notice of Traumatic Injury and Claim for Continuation of Pay;
CA-2, Notice of Occupational Disease and Claim for Compensation; and CA-20, Attending Physician’s Report.

                                                        9
Postal Service Workers’ Compensation Program                                                       HR-AR-11-007




                         Table 2: Employee Training Records Analysis

                             Did not receive           Did not receive            Did not receive
                            limited-duty and               claims                OWCP Employee
                              rehabilitation            management                  Health and
                                 training                 training                Safety training
 HRM Personnel                   (7 of 12) 58%               (7 of 12) 58%             (2 of 12) 17%
 Supervisors                  (0 of 13) 14 100%              (5 of 13) 38%             (5 of 13) 38%
 Source: OIG Analysis

HRM personnel also stated they did not have adequate time or resources to conduct
case management properly. As a result, the Postal Service is at risk of overpaying
workers’ compensation costs.

Although the Postal Service recovered about $8.9 million in third-party liability cases, 15
we found that Postal Service personnel did not always handle potential third-party
liability cases in accordance with policy. 16 In 32 of 38 cases we reviewed in three
districts, we found the following:

    Seven of 38 case files did not contain evidence that the Postal Service assessed
     liability or conducted any investigation.

    In 14 cases the claimant did not respond to the Postal Service’s Notice of Potential
     Third-Party Liability 17 and in 13 of these cases the Postal Service did not take the
     required action to follow-up on and pursue the case.

    In 11 cases the Postal Service did not take the required action to pursue the claim
     following assignment by the claimant.

According to Postal Service officials, significant turnover in district-level human
resources staff have resulted in untrained and inexperienced staff handling third-party
recoveries. Specifically, we found that 9 of 12 HRM specialists in the Chicago,
Philadelphia, and Seattle Districts had not received training related to third-party
recoveries in the last 3 years. Additionally, HRM officials stated that staffing turnover
and changes have caused specialists to prioritize claims management responsibilities,
and pursuing third-party recoveries was often not a priority.

HRM officials have acknowledged the importance of pursuing third-party recoveries and
taken steps to help ensure the proper handling of these claims. For example, Seattle
14
   According to Postal Service officials, supervisors, and managers received some limited-duty and rehabilitation
training which was not recorded in their training records.
15
   Recoveries from 1,686 claims for the period October 2008 through April 2011.
16
   Handbook EL-505, October 1995.
17
   The Postal Service uses Postal Service Form 2562, Injury Compensation Program, Notice of Potential Third Party
Claim, to obtain information necessary to pursue recoveries from liable third parties.



                                                        10
Postal Service Workers’ Compensation Program                                  HR-AR-11-007



District HRM personnel, in coordination with the Western Area, conduct periodic audits
of third-party claims to determine the status of claims and follow up as necessary.
Chicago District HRM personnel review a select number of third-party cases every
month to determine their status and ensure recovery is actively pursued. Postal Service
Headquarters recently designated an official at headquarters to help monitor and seek
third-party recoveries. Because management is increasing efforts to pursue third-party
liabilities, we are not making a recommendation regarding prioritization of resources.
Improved handling and pursuing of third-party liability cases will ensure the Postal
Service receives reimbursement for these claims.

New Claims Acceptance Rates

Lastly, we performed an analysis of the claims acceptance rates for the DOL compared
to that of the SSA and reviewed the differences in requirements and benefits. In
contrast to the SSA, the DOL approves the majority of new claims. Specifically, the
DOL’s average 5-year acceptance rate for new claims was 85 percent compared to the
SSA’s 40 percent acceptance rate for SSDI. With FECA, medical evidence is required
to prove the claimant has a work-related injury or disease and the claimant receives
benefits prior to claim approval. Alternatively, the SSA requires medical evidence to
establish that the claimant is expected to be totally disabled for at least 12 months and
the claimant does not receive benefits prior to claim approval.
SSDI is a federally run benefits program that provides aid to people who are unable to
achieve gainful employment due to a permanent disabling condition. SSDI is funded by
the Social Security tax, therefore, any person who qualifies as disabled according to the
definition provided by the SSA and who has paid Social Security taxes long enough to
achieve sufficient work credits can qualify for SSDI. SSDI compensation is based on
individual earnings and work credits. The OWCP is a non-adversarial program, which
provides medical care, wage loss compensation, and rehabilitation services. Employee
compensation is tax-free. The individual base rate is 66 2/3 percent of the injured
employee’s salary or 75 percent if there is at least one dependent. Table 3 compares
requirements and benefits for the federal workers’ compensation program and SSDI.




                                               11
Postal Service Workers’ Compensation Program                                                           HR-AR-11-007



           Table 3: Comparison of Federal Workers’ Compensation and SSDI

                         Workers’ Compensation                          Social Security Disability Insurance
Eligibility             Claimant must be a U.S.                   Claimant must have worked and paid into the
                         government employee.                       program (payroll taxes) for 5 of the last 10 years.
                        Claimant must have a work-                Claimant’s disability must be expected to last at
                         related injury or disease.                 least 1 year or result in death.
                        Claim must be filed within                Claimant can no longer perform the work they
                         3 years of the date of                     performed in their old job and unable to adjust to
                         injury 18 or date of                       new work because of their medical condition.
                         awareness for occupational
                         disease.
Benefits                After 3-day waiting period                Compensation is based on individual earnings
                         claimant can receive COP                   and work credits. 20
                         benefits up to 45 days. 19
                        Compensation: 66 2/3
                         percent of employee’s base
                         salary (tax-free) or 75
                         percent if there is at least
                         one dependent.
                        Medical services
                        Vocational rehabilitation
Waiting                 Medical benefits are                      Five-month waiting period before the claimant
Period                   covered immediately                        receives benefits. If approved, benefits paid
                        Three-day waiting period for               retroactively.
                         COP
Acceptance              Eighty-five percent average               Forty percent average 5-year acceptance rate for
Rate                     5-year acceptance rate for                 new claims.
                         new claims.
Benefit                 No age or time limits for                 Benefits terminate when a claimant reaches full
Duration                 benefits.                                  retirement age as defined by the SSA.
Appeals                 Oral and/or written hearings              Reconsideration
Process                  held by the Branch of                     Administrative hearing
                         Hearings and Review                       Review by SSA Appeals Council
                        Reconsideration request to                Federal District Court
                         the OWCP district office
                        Appeals reviewed by
                         Employee Compensation
                         Appeals Board
Source: DOL and SSA




18
   Claim must be filed within 3 years of the date of injury, except where the official superior had actual knowledge of
the injury within 30 days of its occurrence.
19
   Traumatic injury only.
20
   Eligible claimants can also receive vocational rehabilitation services provided through community organizations that
receive grants from SSA.

                                                          12
Postal Service Workers’ Compensation Program                                  HR-AR-11-007



Recommendations
We recommend the vice president, Employee Resource Management:

1. Continue to pursue legislative change to transform the Federal Employees’
   Compensation Act into a modernized workers’ compensation program that includes
   best practices for increasing program effectiveness and efficiencies and reducing
   costs.

2. Pursue legislative change to amend Federal Employees’ Compensation Act to allow
   recovery of continuation of pay benefits in third-party cases.

3. Pursue legislative change to reform Federal Employee Compensation Act to allow
   employing agencies to present evidence at hearings when fraud is alleged.

4. Request the secretary of Labor or designee to:

      Clearly define organizational responsibilities for detecting workers’ compensation
       fraud.

      Establish requirements for Department of Labor to respond to reports of
       investigations within 45 days after receiving them.

      Establish a provider compliance program.

      Revise the method used to determine the administrative fee to ensure the fee is
       based on actual costs to administer Postal Service Workers’ Compensation
       Program.

5. Develop mandatory and refresher training for Postal Service officials responsible for
   workers’ compensation to ensure they are aware of their roles and responsibilities
   for workers’ compensation.
Management’s Comments

Management agreed with recommendations 1 and 2 and stated the recommendations
support their current actions to pursue legislative changes that would increase
efficiencies and reduce costs. Management further stated that Employee Resource
Management is working closely with Postal Service Government Relations to assist the
OWCP with their legislative agendas. They have also met with members of Congress
and provided them with pertinent data to assist in drafting legislative proposals
regarding recovery of COP benefits. Management stated these matters must be
addressed through Congress; therefore they cannot provide a firm implementation date.

Management disagreed with recommendation 3 and stated that, although the employing
agency is not permitted to testify during the hearing, FECA provides ample opportunities
for the agency to provide documentation and evidence deemed pertinent to the


                                               13
Postal Service Workers’ Compensation Program                                   HR-AR-11-007



decision-making process. Management partially agreed with recommendation 4 and
stated that the secretary of Labor has clearly defined organization responsibilities for
detecting fraud and policies are in place to respond to inquiries from employing
agencies and their designated representatives. The responsibilities and procedures to
respond to inquiries were communicated in a bulletin issued to the OWCP, employing
agencies, and OIG personnel. Additionally, attempts were made to establish a joint
working group between the DOL OIG and Postal Service OIG to address these matters.

Management agreed to request the secretary of Labor or designee to establish a
provider compliance program and stated that current legislation does not provide
enforcement authority to the OWCP. However, regulations approved by the Office of
Management and Budget address the provider exclusion process and will make it easier
to exclude providers identified as using incorrect billing methods or fraudulent practices.
Management stated this will be a continuing effort. Management also agreed to request
the secretary of Labor to revise the methodology used to determine the administrative
fee. Management stated they are committed to contacting the secretary of Labor or
designee to address the fair share calculation method and explore changes that would
more accurately reflect the cost associated with administering claims for injured Postal
Service workers. The target completion date is Q1, FY 2012.

Management agreed with recommendation 5, stating they recognize the need to provide
responsible staff with updated training. They are currently adding training material to the
Postal Service Learning Management System to enable them to better monitor the
staff’s training activities. The target completion date is Q4, FY 2012. See Appendix B for
management’s comments in their entirety.

Evaluation of Management’s Comments

We consider management’s comments responsive to recommendations 1, 2, and 5 and
corrective actions should resolve the issues identified in the report. Regarding
recommendation 3, we recognize the employing agency can provide written evidence to
support its fraud cases during hearings. However, the ability to provide oral testimony
during the hearing to counter the claimant’s testimony would enhance the employing
agencies’ abilities to substantiate its fraud claims. Regarding management’s comments
related to portions of recommendation 4, we disagree that the secretary of Labor has
clearly defined responsibilities for detecting fraud. The DOL requires their claims
examiner to review case files for fraud and to notify the DOL OIG if fraud is suspected.
However, the examiner is not required to notify the employing agency or the agency
OIG. Further, it is not clear what role the DOL, the DOL OIG, the agency, and the
agency OIG have in the investigative process. We also disagree that the DOL has
requirements in place for responding to OIG ROIs. We plan to request quarterly joint
working group meetings with the DOL and the DOL OIG to address the issues
management disagreed with in recommendations 3 and 4. We consider management’s
comments responsive to recommendation 4 with regard to the provider compliance
program and administrative fee. Management’s planned corrective actions should
resolve the issues identified.


                                               14
Postal Service Workers’ Compensation Program                               HR-AR-11-007




The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               15
Postal Service Workers’ Compensation Program                                    HR-AR-11-007



                            Appendix A: Additional Information

Background

Postal Service employees are covered by FECA. The DOL OWCP administers FECA
and determines the injured worker’s eligibility for benefits. The DOL provides direct
compensation to providers, claimants, and beneficiaries. However, the Postal Service
later reimburses the DOL for all workers’ compensation claims, including an
administrative fee through a process known as “charge-back billings.” The Postal
Service’s workers’ compensation costs for chargeback year 2010 were over $1 billion
and administrative fees were approximately $61 million.

Enacted in 1916, FECA provides medical, compensation, death, and other benefits,
such as vocational rehabilitation, and nursing services to civilian federal employees who
sustain injuries including occupational disease as a result of their employment with the
federal government. FECA also provides monetary benefits to qualified survivors if a
work-related injury or disease causes an employee’s death. FECA compensation
benefits are tax-free. The base rate is 66 2/3 percent of the injured employees salary if
there are no dependents or 75 percent if there is a least one dependent. FECA does not
have age or time limits on benefits.

The OWCP has the exclusive authority, except as otherwise provided by law, for the
administration, implementation, and enforcement of FECA. Its main responsibility is to
determine whether the claimant is entitled to benefits under FECA. The OWCP
administers FECA through 12 district offices across the U.S. Each district office is
headed by a district director, who is responsible for office functions. Additionally, each
district office has two or more supervisory claims examiners or claims managers who
are responsible for the operation of individual claims units. Claims units, staffed with
senior claims examiners and claims examiners, are primarily responsible for rendering
decisions and managing OWCP claims.

The primary role of the Postal Service’s Workers’ Compensation Program is to assist
injured workers with completing and submitting compensation claims to the OWCP and
to facilitate injured employees return to the workplace. The senior vice president,
Human Resources, and the manager, Safety and Risk Management, are responsible for
establishing policies and procedures for the Postal Service’s Workers’ Compensation
Program.

Area human resources managers implement the Postal Service’s Workers’
Compensation Program and oversee area-wide program activities to ensure compliance
with national policies and guidelines. Additionally, HRM analysts in the area offices keep
headquarters management advised of the status of the agency and OWCP initiatives,
provide technical assistance, and manage and oversee cost-reduction initiatives.
Nationally, the Postal Service’s Workers’ Compensation Program is administered by
various personnel located in district and selected satellite offices, including district HRM
managers and HRM specialists. First-line supervisors are responsible for performing


                                               16
Postal Service Workers’ Compensation Program                                 HR-AR-11-007



claims management immediately following an injury, including investigating the
circumstances surrounding the injury. The injured employee or person acting on behalf
of the employee is responsible for filing the initial claim forms within the specified
timeframes.

The OIG has the authority and responsibility to investigate workers’ compensation fraud
for Postal Service employees. The DOL OIG has jurisdiction to investigate all workers’
compensation fraud because the DOL is statutorily authorized to administer FECA
benefits. The OIG and the DOL OIG share jurisdiction to investigate fraud related to
Postal Service workers’ compensation claims. Further, the DOL and the Postal Service
also have responsibilities for detecting workers’ compensation fraud.

Objectives, Scope, and Methodology

Our objectives were to determine whether Postal Service workers’ compensation claims
are handled effectively and efficiently to ensure employees entitled to benefits
appropriately receive them and to identify opportunities to reduce workers’
compensation costs and improve service.

We reviewed the Postal Service’s Workers’ Compensation Program and identified
opportunities to reduce costs and improve service. To accomplish our objective, we
reviewed applicable policies and procedures and interviewed responsible Postal Service
officials to gain an understanding of their roles and responsibilities for workers’
compensation. We also reviewed training records from the Postal Service’s Learning
Management System to determine whether key personnel responsible for the workers’
compensation program received workers’ compensation training.

We statistically sampled 150 workers’ compensation case files in the Chicago,
Philadelphia, and Seattle Districts to determine whether the related claims were handled
appropriately. Additionally, we reviewed the Postal Service’s workers’ compensation
expenses for chargeback years 2008 through 2010. We also reviewed the DOL’s
methods for determining fair share administrative fees and their protocols for handling
OIG reports of investigation.

We conducted a comparative analysis between the DOL and SSA eligibility
requirements, benefits, and approval rates for workers’ compensation programs and
SSDI. Additionally we contracted with a firm to benchmark industry best practices for
reducing workers’ compensation costs and improving service. We also assessed
internal controls related to workers’ compensation program to identify control
weaknesses.

We conducted this performance audit from March through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our


                                               17
Postal Service Workers’ Compensation Program                                 HR-AR-11-007



audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 16, 2011, and included their
comments where appropriate.

We assessed the reliability of workers’ compensation data by interviewing Postal
Service officials knowledgeable about the data; reviewing existing information about the
data and the system that produced it; and comparing the data with hard-copy workers’
compensation files. We discussed the training records with applicable officials. We
determined that the data was sufficiently reliable for the purposes of this report.




                                               18
    Postal Service Workers’ Compensation Program                               HR-AR-11-007



    Prior Audit Coverage

                     Report               Final Report   Monetary
Report Title         Number               Date           Impact     Report Results
Retirement for       HR-MA-11-001           4/22/2011    $37.8      If FECA were reformed
U.S. Postal                                              million    to convert compensation
Service                                                  annually   to 50 percent of the
Employees on                                             or $378    employee’s monthly pay
Workers’                                                 million    when they reach
Compensation                                             over 10    retirement age, the
                                                         years      Postal Service could
                                                                    save $378 million over
                                                                    10 years. The OIG
                                                                    recommended and
                                                                    management agreed to
                                                                    continue to pursue
                                                                    legislative change to
                                                                    reform FECA to reduce
                                                                    workers’ compensation
                                                                    benefits for retirement
                                                                    age employees.




                                                   19
     Postal Service Workers’ Compensation Program                     HR-AR-11-007



Workers’               FT-MA-11-002          12/23/2010   The OIG found that the
Compensation                                              Postal Service’s
Liability Estimate                                        workers’ compensation
                                                          liability was significantly
                                                          higher than that of
                                                          comparable private
                                                          sector companies.
                                                          Management could
                                                          improve the workers’
                                                          compensation model by
                                                          ensuring that personnel
                                                          who develop the liability
                                                          estimate better
                                                          understand the model,
                                                          including the
                                                          assumptions made, the
                                                          analyses conducted,
                                                          and the rationale for the
                                                          methods used. The OIG
                                                          provided three
                                                          recommendations
                                                          regarding
                                                          improvements to the
                                                          model. Management
                                                          agreed to consider
                                                          further alternatives for
                                                          calculating the liability.




                                                    20
    Postal Service Workers’ Compensation Program                     HR-AR-11-007



OWCP’s                04-09-004-04-          9/29/2009   The DOL OIG found
Jacksonville and           431                           that the OWCP needs
New York District                                        to improve its process
Offices Need to                                          for monitoring claimants
Improve                                                  in the “re-employment
Monitoring of Re-                                        status not yet
Employment                                               determined.” In
Status of                                                11 percent of the cases
Claimants                                                (13 of 119), claims
                                                         examiners did not
                                                         perform critical required
                                                         activities such as
                                                         referring claimants for
                                                         nursing or vocational
                                                         rehabilitation services.
                                                         Also, claims examiners
                                                         did not make necessary
                                                         referrals or conduct
                                                         proper follow-up for
                                                         medical examinations in
                                                         45 percent of the cases
                                                         reviewed (54 of 119).
                                                         Untimely case
                                                         management was
                                                         attributed to insufficient
                                                         supervisory oversight.
                                                         Management agreed to
                                                         both recommendations
                                                         to improve case
                                                         management.




                                                   21
    Postal Service Workers’ Compensation Program                  HR-AR-11-007



Federal Workers’       GAO-08-284             2/2008    The GAO found the
Compensation:                                           OWCP lacked an
Better Data and                                         effective strategy for
Management                                              managing the risks of
Strategies Would                                        improper payments
Strengthen                                              because it has not
Efforts to Prevent                                      emphasized preventing,
and Address                                             detecting, and
Improper                                                recovering improper
Payments                                                payments or collected
                                                        information needed to
                                                        assess the program’s
                                                        risk of improper
                                                        payments. None of the
                                                        agency’s performance
                                                        goals for the FECA
                                                        program addressed
                                                        improper payments.
                                                        The GAO issued four
                                                        recommendations to
                                                        strengthen the OWCP’s
                                                        efforts to prevent and
                                                        address improper FECA
                                                        payments. DOL
                                                        disagreed with many of
                                                        the GAO’s findings and
                                                        conclusions; however,
                                                        the agency described
                                                        several actions being
                                                        taken that were
                                                        consistent with the
                                                        recommendations.




                                                   22
Postal Service Workers’ Compensation Program                  HR-AR-11-007


A




                          Appendix B: Management’s Comments




                                               23
Postal Service Workers’ Compensation Program        HR-AR-11-007




                                               24
Postal Service Workers’ Compensation Program        HR-AR-11-007




                                               25
Postal Service Workers’ Compensation Program        HR-AR-11-007




                                               26
